APPENDIX

TABLE OF APPENDICES
Appendix A
Opinion of the United States Court of
Appeals
for
the
Ninth
Circuit,
United States v. Myres, No. 19-10415
(Feb. 16, 2021) ............................................. App-1
Appendix B
Judgment of the United States District
Court for the Northern District of
California, United States v. Myres,
No. CR-17-00180-RS (Nov. 21, 2019) .......... App-8
Appendix C
Order of the United States Court of
Appeals for the Ninth Circuit Denying
the Petition for Rehearing En Banc,
United States v. Myres, No. 19-10415
(Apr. 26, 2021) ........................................... App-20

App-1
Appendix A
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
________________
No. 19-10415
________________
UNITED STATES OF AMERICA,
v.

Plaintiff-Appellee,

APRIL DIANE MYRES,
Defendant-Appellant.
________________
Appeal from the United States District Court
for the Northern District of California
No. 3:17-cr-00180-RS-1
Richard Seeborg, District Judge, Presiding
Argued and Submitted January 14, 2021
San Francisco, California
Filed February 16, 2021
Dkt Entry No. 48-1
NOT FOR PUBLICATION
________________
MEMORANDUM *

* This disposition is not appropriate for publication and is not
precedent except as provided by Ninth Circuit Rule 36-3.

App-2
Before: WALLACE and M. SMITH, Circuit Judges,
and LASNIK, ** District Judge.
April Myres was convicted by a jury for mail
fraud, in violation of 18 U.S.C. § 1341, and wire fraud,
in violation of 18 U.S.C. § 1343. Myres’ convictions
stemmed from an insurance claim she filed after she
reported a burglary at her home. Myres was sentenced
to fourteen months’ imprisonment. On appeal, Myres
argues that the district court made four errors in
evidentiary rulings at trial and that the court erred in
sentencing. Because the parties are familiar with the
facts, we do not recount them in detail, except as
necessary to provide context to our ruling. We have
jurisdiction under 18 U.S.C. § 1291.
I. Evidentiary Admissions at Trial
We review evidentiary rulings to admit or exclude
evidence for abuse of discretion. United States v.
Alvirez, 831 F.3d 1115, 1120 (9th Cir. 2016). Where an
evidentiary error has occurred in a criminal
prosecution, this Court reviews de novo whether the
error “rises to the level of a constitutional violation.”
United States v. Haischer, 780 F.3d 1277, 1281 (9th
Cir. 2015). We conclude that the district court properly
denied
Myres’
evidentiary
objections
and
constitutional challenges.
First, the district court did not commit
constitutional error in allowing testimony from an
insurance claims adjuster regarding his impression of
Myres’ response to a request that federal law
** The Honorable Robert S. Lasnik, United States District
Judge for the Western District of Washington, sitting by
designation.

App-3
enforcement agents made during a visit to Myres’
home. Myres contends that admitting this testimony
amounted to constitutional error based on United
States v. Prescott, 581 F.2d 1343 (9th Cir. 1978). We
held in Prescott that a “passive refusal to consent to a
warrantless search is privileged conduct which cannot
be considered as evidence of criminal wrongdoing.”
Prescott, 581 F.2d at 1351. Unlike testimony regarding
law enforcement’s breaking down of a door in Prescott,
which we determined “would lead to the conclusion
that [the defendant] had refused permission to enter,”
id. at 1353, testimony about Myres’ comment to the
agents that “she didn’t have time” for “something”
they had asked her, does not lead to the conclusion
that Myres refused a warrantless search. We decline
to extend Prescott to testimony so vague that the jury
could not reasonably connect it to constitutionally
protected conduct.
Even if, arguendo, the testimony in question were
considered a comment on the exercise of Myres’ Fourth
Amendment rights, the testimony was admitted for a
proper purpose: to undermine Myres’ theme that she
was the victim of a burglary. See Leavitt v. Arave, 383
F.3d 809, 828 (9th Cir. 2004) (holding that a
prosecutor was entitled to question a defendant’s
theme of cooperation by showing that defendant was
in fact uncooperative).
Second, the district court did not commit
constitutional error in allowing testimony from a law
enforcement officer regarding Myres not responding to
the officer’s calls after she had invoked her right to
counsel. Myres relies upon two cases that concern
comments referencing a defendant’s retention of

App-4
counsel. See Bruno v. Rushen, 721 F.2d 1193 (9th Cir.
1983); United States v. Kallin, 50 F.3d 689 (9th Cir.
1995). The witness testimony Myres takes issue with,
however, does not contain any comments regarding
Myres’ retention of counsel. Moreover, the government
did not elicit testimony regarding Myres retaining an
attorney, and the government never implied that
retaining an attorney was a sign of guilt. Cf. Kallin,
50 F.3d at 693–94; Bruno, 721 F.2d at 1194–95.
Therefore, the district court did not err in admitting
this testimony.
Third, the district court did not abuse its
discretion in admitting a recording of a jail call
between Myres and her ex-boyfriend, Antoine Fowler.
A district court has “‘wide latitude’ in determining
admissibility of evidence under Rule 403 . . . and its
decision is accorded considerable deference.” United
States v. Joetzki, 952 F.2d 1090, 1094 (9th Cir. 1991)
(citation omitted). Myres made statements in the call
that tended to show that she was aware that Fowler
faced danger upon his release from jail. These
statements had probative value because they made it
more likely that Myres knew Fowler would seek out a
firearm for protection, which was relevant to the
charges the government was trying to prove. Although
other witness testimony established that Fowler was
a known “snitch,” it did not get as directly at Myres’
expectation that Fowler would face danger upon his
release. Myres argued that the call was unfairly
prejudicial, but when viewed in the context of Fowler’s
own behavior toward Myres, the call did not unfairly
vilify Myres.

App-5
Fourth, the district court did not abuse its
discretion when it permitted testimony regarding a
court order prohibiting Myres from possessing a
firearm. In particular, the testimony concerned Myres’
employer, the San Francisco Sheriff’s Department
(SFSD), repossessing a firearm from Myres as a result
of a court order. This testimony was probative because
it tended to show that Myres was aware she was not
the owner of the firearm; rather, she understood that
SFSD was the owner. Given that Myres wrote on her
second proof of loss to her insurer that SFSD
equipment became hers after four years of service, her
understanding of the firearm’s ownership was
relevant to evaluating her intent in making this
statement. Additionally, the likelihood of unfair
prejudice was slight because the reference to the court
order was brief, and it was unlikely to provoke an
emotional response where the jury learned that the
confiscated firearm was eventually returned to Myres.
See United States v. Fagan, 996 F.2d 1009, 1015 (9th
Cir. 1993) (concluding that a “brief reference to [the
defendant’s] gang membership was not likely to
provoke an emotional response in the jury”).
The district court did not commit constitutional
error, and it acted within its discretion to admit the
evidence Myres challenges on appeal. While the
district court faced challenging legal questions, it
issued thoughtful rulings to ensure Myres received a
fair trial. See Ross v. Oklahoma, 487 U.S. 81, 91 (1988)
(observing that the “Constitution entitles a criminal
defendant to a fair trial, not a perfect one”).

App-6
II. Sentencing
We review the district court’s interpretation of the
Guidelines issued by the United Sentencing
Commission (the Guidelines) de novo, application of
the Guidelines to the facts for abuse of discretion, and
factual findings for clear error. United States v.
Staten, 466 F.3d 708, 713 (9th Cir. 2006). We conclude
that the district court erred when it failed to make
findings on the record regarding Myres’ intent with
respect to the amount of intended loss.
When a defendant has committed fraud, the base
offense level increases consistent with the amount of
“loss.” See U.S.S.G. § 2B1.1. The Guidelines define
“loss” as “the greater of actual loss or intended loss.”
U.S.S.G. § 2B1.1, cmt. n.3 (A). The amount of
“intended loss” is equivalent to “the pecuniary harm
that the defendant purposely sought to inflict.” 1
U.S.S.G. § 2B1.1, cmt. n.3 (A)(ii). The government
must “prove the loss by a preponderance of the
evidence.” United States v. Walter-Eze, 869 F.3d 891,
912 (9th Cir. 2017) (quoting United States v. Torlai,
728 F.3d 932, 946 n.13 (9th Cir. 2013)). A district court
may “impose sentencing enhancements only for losses
that ‘resulted from’ the defendant’s fraud.” United
States v. Berger, 587 F.3d 1038, 1043 (9th Cir. 2009)
(quoting United States v. Hicks, 217 F.3d 1038, 1048
(9th Cir. 2000)).

1 The amount of intended loss also “includes intended
pecuniary harm that would have been impossible or unlikely to
occur (e.g., as in a government sting operation, or an insurance
fraud in which the claim exceeded the insured value).” U.S.S.G.
§ 2B1.1, cmt. n.3 (A)(ii).

App-7
The district court’s responses to defense counsel
during sentencing suggested that the court considered
Myres’ motives irrelevant, and the court did not
provide explicit reasoning or factual findings to
support its conclusion that the intended loss was the
entire claim. Accordingly, we must vacate the
sentence and remand for the district court to explain
fully its reasoning. See United States v. JimenezOrtega, 472 F.3d 1102 (2007) (remanding where
sentencing court failed to make a finding about the
materiality of defendant’s false statements).
AFFIRMED IN PART, VACATED
AND REMANDED IN PART.

App-8
Appendix B
UNITED STATES DISTRICT COURT FOR THE
NORTHERN DISTRICT OF CALIFORNIA
________________
USDC Case Number: CR-17-00180-001 RS
BOP Case Number: DCAN317CR00180-001
USM Number: 24102-111
Defendant’s Attorney:
Michael J. Shepard (Appointed)
________________
UNITED STATES OF AMERICA,
v.

Plaintiff,

APRIL DIANE MYRES,
Defendant.
________________
JUDGMENT IN A CRIMINAL CASE
THE DEFENDANT:


pleaded guilty to count(s):



pleaded nolo contendere to count(s): which was
accepted by the court.



was found guilty on counts: One and Two after
a plea of not guilty.

The defendant is adjudicated guilty of these offenses:
Title &
Section

Nature of
Offense

Offense
Ended

18 U.S.C.
§ 1341

Mail Fraud

05/04/2016 One

Count

App-9
18 U.S.C.
§ 1343

Wire Fraud

05/14/2016 Two

The defendant is sentenced as provided in pages 2
through 6 of this judgment. The sentence is imposed
pursuant to the Sentencing Reform Act of 1984.


The defendant has been found not guilty on
count(s):



Count(s) dismissed on the motion of the United
States.

It is ordered that the defendant must notify the
United States attorney for this district within 30 days
of any change of name, residence, or mailing address
until all fines, restitution, costs, and special
assessments imposed by this judgment are fully paid.
If ordered to pay restitution, the defendant must
notify the court and United States attorney of material
changes in economic circumstances.
11/19/2019
Date of Imposition of Judgment
/s/ [handwritten signature]
Signature of Judge
The Honorable Richard Seeborg
United States District Judge
Name & Title of Judge
11/21/2019
Date

App-10
DEFENDANT: April Diane Myres
CASE NUMBER: CR-17-00180-001 RS
IMPRISONMENT
The defendant is hereby committed to the custody of
the United States Bureau of Prisons to be imprisoned
for a total term of:
14 months. This term consists of terms of 14
months on each of counts One and Two, both
counts to be served concurrently.
The appearance bond is hereby exonerated, or upon
surrender of the defendant as noted below. Any cash
bail plus interest shall be returned to the owner(s)
listed on the Affidavit of Owner of Cash Security form
on file in the Clerk’s Office.


The
Court
makes
the
following
recommendations to the Bureau of Prisons:
The defendant be housed at the camp facility
in Dublin, California.



The defendant is remanded to the custody of the
United States Marshal.



The defendant shall surrender to the United
States Marshal for this district:





at on (no later than 2:00 pm).



as notified by the United States Marshal.

The defendant shall surrender for service of
sentence at the institution designated by the
Bureau of Prisons:


at 02:00 pm on 1/28/2020 (no later than
2:00 pm).



as notified by the United States Marshal.

App-11


as notified by the Probation or Pretrial
Services Office.
RETURN

I have executed this judgment as follows:
Defendant
delivered
on
___________
to
____________ at ___________, with a certified copy
of this judgment.
UNITED STATES MARSHAL
By

DEPUTY UNITED STATES MARSHAL

DEFENDANT: April Diane Myres
CASE NUMBER: CR-17-00180-001 RS
SUPERVISED RELEASE
Upon release from imprisonment, the defendant shall
be on supervised release for a term of: Three years.
This term consists of terms of three years on each of
Counts One and Two, all such terms to run
concurrently


The above drug testing condition is suspended,
based on the court’s determination that the
defendant poses a low risk of future substance
abuse. (Check, if applicable.)



The defendant shall not possess a firearm,
ammunition, destructive device, or any other
dangerous weapon. (Check, if



The defendant shall cooperate in the collection
of DNA as directed by the probation officer.
(Check, if applicable.)

App-12


The defendant shall comply with the
requirements of the Sex Offender Registration
and Notification Act (42 U.S.C. § 16901, et seq.)
as directed by the probation officer, the Bureau
of Prisons, or any state sex offender registration
agency in which he or she resides, works, is a
student, or was convicted of a qualifying offense.
(Check, if applicable.)



The defendant shall participate in an approved
program for domestic violence. (Check, if
applicable.)

If this judgment imposes a fine or restitution, it is
a condition of supervised release that the defendant
pay in accordance with the Schedule of Payments
sheet of this judgment.
The defendant must comply with the standard
conditions that have been adopted by this court as well
as with any additional conditions on the attached
page.
STANDARD CONDITIONS OF SUPERVISION
1)

The defendant shall not leave the judicial district
without the permission of the court or probation
officer;

2)

The defendant shall report to the probation officer
and shall submit a truthful and complete written
report within the first five days of each month;

3)

The defendant shall answer truthfully all
inquiries by the probation officer and follow the
instructions of the probation officer;

4)

The defendant shall support his
dependents
and
meet
other
responsibilities;

or her
family

App-13
5)

The defendant shall work regularly at a lawful
occupation, unless excused by the probation
officer for schooling, training, or other acceptable
reasons;

6)

The defendant shall notify the probation officer at
least ten days prior to any change in residence or
employment;

7)

The defendant shall refrain from excessive use of
alcohol and shall not purchase, possess, use,
distribute, or administer any controlled substance
or any paraphernalia related to any controlled
substances, except as prescribed by a physician;

8)

The defendant shall not frequent places where
controlled substances are illegally sold, used,
distributed, or administered;

9)

The defendant shall not associate with any
persons engaged in criminal activity and shall not
associate with any person convicted of a felony,
unless granted permission to do so by the
probation officer;

10) The defendant shall permit a probation officer to
visit him or her at any time at home or elsewhere
and shall permit confiscation of any contraband
observed in plain view of the probation officer;
11) The defendant shall notify the probation officer
within seventy-two hours of being arrested or
questioned by a law enforcement officer;
12) The defendant shall not enter into any agreement
to act as an informer or a special agent of a law
enforcement agency without the permission of the
court; and

App-14
13) As directed by the probation officer, the defendant
shall notify third parties of risks that may be
occasioned by the defendant’s criminal record or
personal history or characteristics and shall
permit the probation officer to make such
notifications and to confirm the defendant’s
compliance with such notification requirement.
DEFENDANT: April Diane Myres
CASE NUMBER: CR-17-00180-001 RS
SPECIAL CONDITIONS OF SUPERVISION
1.

You must pay any special assessment that is
imposed by this judgment and that remains
unpaid at the commencement of the term of
supervised release.

2.

You must not open any new lines of credit and/or
incur new debt without the prior permission of the
probation officer.

3.

You must provide the probation officer with access
to any financial information, including tax
returns, and shall authorize the probation officer
to conduct credit checks and obtain copies of
income tax returns.

4.

You must cooperate in the collection of DNA as
directed by the probation officer.

App-15
DEFENDANT: April Diane Myres
CASE NUMBER: CR-17-00180-001 RS
CRIMINAL MONETARY PENALTIES
The defendant must pay the total criminal
monetary penalties under the schedule of payments.
TOTALS

Assessment

Fine

Restitution

$200

Waived

N/A



The determination of restitution is deferred
until. An Amended Judgment in a Criminal
Case (AO 245C) will be entered after such
determination.



The defendant must make restitution (including
community restitution) to the following payees
in the amount listed below.
If the defendant makes a partial payment,
each payee shall receive an approximately
proportioned payment, unless specified
otherwise in the priority order or percentage
payment column below. However, pursuant to
18 U.S.C. § 3664(i), all nonfederal victims
must be paid before the United States is paid.

App-16
Name of
Payee

Total Loss *

Restitution Priority of
Ordered
Percentage

***
TOTALS

$0.00

$0.00



Restitution amount ordered pursuant to plea
agreement $



The defendant must pay interest on restitution
and a fine of more than $2,500, unless the
restitution or fine is paid in full before the
fifteenth day after the date of the judgment,
pursuant to 18 U.S.C. § 3612(f). All of the
payment options on Sheet 6 may be subject to
penalties for delinquency and default, pursuant
to 18 U.S.C. § 3612(g).



The court determined that the defendant does
not have the ability to pay interest and it is
ordered that:


the interest requirement is waived for
the.



the interest requirement is waived for the
is modified as follows:

* Findings for the total amount of losses are required under
Chapters 109A, 110, 110A, and 113A of Title 18 for offenses
committed on or after September 13, 1994, but before April 23,
1996.

App-17
DEFENDANT: April Diane Myres
CASE NUMBER: CR-17-00180-001 RS
SCHEDULE OF PAYMENTS
Having assessed the defendant’s ability to pay,
payment of the total criminal monetary penalties is
due as follows*:
A  Lump sum payment of ____________ due
immediately, balance due
 not later than , or
 in accordance with  C,  D, or  E,
and/or  F below); or
B  Payment to begin immediately (may be
combined with  C,  D, or  F below); or
C  Payment in equal (e.g., weekly, monthly,
quarterly) installments of __ over a period
of (e.g., months or years), to commence (e.g.,
30 or 60 days) after the date of this
judgment; or
D  Payment in equal (e.g., weekly, monthly,
quarterly) installments of __ over a period
of (e.g., months or years), to commence (e.g.,
30 or 60 days) after release from
imprisonment to a term of supervision; or

*
Payments shall be applied in the following order:
(1) assessment, (2) restitution principal, (3) restitution interest,
(4) fine principal, (5) fine interest, (6) community restitution,
(7) penalties, and (8) costs, including cost of prosecution and
court costs.

App-18
E  Payment during the term of supervised
release will commence within (e.g., 30 or 60
days) after release from imprisonment. The
court will set the payment plan based on an
assessment of the defendant’s ability to pay
at that time; or
F  Special instructions regarding the payment
of criminal monetary penalties:
It is further ordered that the defendant
shall pay to the United States a special
assessment of $200. Payments shall be
made to the Clerk of U.S. District Court,
450 Golden Gate Ave., Box 36060, San
Francisco, CA 94102. During imprisonment,
payment of criminal monetary penalties are
due at the rate of not less than $25 per
quarter and payment shall be through the
Bureau of Prisons Inmate Financial
Responsibility Program.
Unless the court has expressly ordered otherwise, if
this judgment imposes imprisonment, payment of
criminal monetary penalties is due during
imprisonment. All criminal monetary penalties,
except those payments made through the Federal
Bureau of Prisons’ Inmate Financial Responsibility
Program, are made to the clerk of the court.
The defendant shall receive credit for all payments
previously made toward any criminal monetary
penalties imposed.

App-19


Joint and Several

Case Number
Defendant and
Co-Defendant
Names
(including
defendant
number)

Total
Amount

Joint
and
Several
Amount

Corresponding Payee, if
appropriate



The defendant shall pay the cost of prosecution.



The defendant shall pay the following court
cost(s):



The defendant shall forfeit the defendant’s
interest in the following property to the United
States:



The Court gives notice that this case involves
other defendants who may be held jointly and
severally liable for payment of all or part of the
restitution ordered herein and may order such
payment in the future, but such future orders do
not affect the defendant’s responsibility for the
full amount of the restitution ordered.

App-20
Appendix C
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
________________
No. 19-10415
________________
UNITED STATES OF AMERICA,
v.

Plaintiff-Appellee,

APRIL DIANE MYRES,
Defendant-Appellant.
________________
Appeal from the United States District Court
for the Northern District of California
No. 3:17-cr-00180-RS-1
San Francisco, California
Filed April 26, 2021
Dkt Entry No. 54
________________
ORDER *
Before: WALLACE and M. SMITH, Circuit Judges,
and LASNIK,* District Judge.
The full court has been advised of the petition for
rehearing en banc and no judge of the court has
requested a vote on it. Fed. R. App. P. 35. The petition
for rehearing en banc is DENIED.

* The Honorable Robert S. Lasnik, United States District Judge
for the Western District of Washington, sitting by designation.

